          Office of Inspector General




September 28, 2005

DAVID L. SOLOMON
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

MEGAN J. BRENNAN
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Mail Transport Equipment Service Center Network –
         Highway Transportation Routes – New York Metro Area
         (Report Number NL-AR-05-014)

This is one in a series of reports and presents results from our self-initiated nationwide
audit of the mail transport equipment service center (MTESC) network (Project Number
04YG003NL004).

The objective of our audit was to determine whether audit recommendations from our
report, Mail Transport Equipment Service Center Decision Analysis Report,
Performance and Financial Benefit (Report Number TR-AR-01-003, dated
May 4, 2001), were implemented and effective. The May 4, 2001, report, initiated in
response to a Board of Governors request, concluded the network would not achieve
the financial benefits anticipated by the 1997 Decision Analysis Report. We
recommended, in part, that management reduce cost by analyzing transportation
requirements and other costs associated with the network.

The Long Island MTESC provides service to mail processing facilities in New Jersey,
New York, and Connecticut. The transportation contract to service the Stamford,
Connecticut, Processing and Distribution Center is administered by the Northeast Area.
This follow-up report focuses on whether there were opportunities for the Postal Service
to save money by reducing the number of highway round-trips originating at the Long
Island MTESCs.

We concluded that the Postal Service could attain savings or cost avoidances totaling
approximately $741,000 over the term of existing contracts by eliminating 49 round trips
originating at the Long Island MTESC. The trips could be eliminated without affecting
customer service by consolidating loads to more fully utilize trailer capacity, and by
stopping the inappropriate shipment of serviceable over-the-road containers. Further,
we concluded that during 2004 and 2005, the Postal Service may have missed an
opportunity to save about $285,000 because management did not comply with the
Postal Service over-the-road container processing policy. These amounts represent
funds put to better use and questioned costs and will be reported as such in our
Semiannual Report to Congress.

We recommended management evaluate the 49 trips we recommend for termination,
terminate the trips, or document the reasons for retaining the trips.

Management agreed with our recommendation. They stated that they had already
terminated certain trips we proposed for elimination, that they believed our other
proposals may have merit, and that they were considering our proposals. Management
also stated that they would document their decisions not later than October 14, 2005.
Management’s comments and our evaluation of these comments are included in this
report.

The Office of Inspector General (OIG) considers the recommendation significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when actions are completed. This recommendation should not be
closed in the follow-up tracking system until the OIG provides written confirmation the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Anthony M. Pajunas
    Dana L. Austin
    Stuart Gossoff
    Robert M. Koestner
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                        NL-AR-05-014
 Highway Transportation Routes – New York Metro Area



                                     INTRODUCTION
Background                    The mail transport equipment service center (MTESC)
                              network is a system of 22 contractor operated service
                              centers designed to supply mailbags, carts, hampers, and
                              other mail transport equipment to mail processing facilities
                              nationwide. The service centers deliver equipment to users
                              with dedicated transportation.

                              The original plan to create the network was presented to the
                              Postal Service Board of Governors (BOG) in Decision
                              Analysis Report (DAR), Mail Transport Equipment Service
                              Center Network, dated May 13, 1997. The DAR forecast
                              costs exceeding $3.6 billion over 10 years, and was
                              approved by the BOG in June 1997. The new network
                              became fully operational in January 2000. From the outset,
                              the new network was troubled by allegations of poor
                              performance and excessive costs. As a result, the BOG
                              asked the Office of Inspector General (OIG) to evaluate the
                              program.




   Our 2001 audit report
   identified $1 billion in
       potential MTE
    transportation cost
         overruns.




                              Our audit report, Mail Transport Equipment Service Center
                              Decision Analysis Report, Performance and Financial
                              Benefit (Report Number TR-AR-01-003, dated
                              May 4, 2001), concluded the network would not achieve the
                              financial benefits anticipated by the DAR. We
                              recommended, in part, that management reduce cost by
                              analyzing transportation requirements and related costs
                              associated with the network.




                                                1
Mail Transport Equipment Service Center Network –                          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area



                             Postal Service Headquarters is aggressively pursuing
                             opportunities to reduce MTESC network costs. Network
                             Operations Management transportation assessment teams,
                             supplemented by area personnel, are currently analyzing
                             network transportation costs in order to reduce operating
                             expense and improve efficiency.

Objective, Scope, and        This audit is a follow up to our May 4, 2001, report. Our
Methodology                  objectives were to determine if management implemented
                             our recommendations and whether there were additional
                             opportunities to save money. This report focuses on
                             New York Metro Area MTESC transportation requirements.

                             New York Metro Area MTESCs provide service to mail
                             processing facilities in New Jersey, New York, and
                             Connecticut. The transportation contract to service the
                             Stamford, Connecticut, Processing and Distribution Center
                             is administered by the Northeast Area. This report was
                             developed in close coordination with the Network
                             Operations Management transportation assessment team
                             and area personnel. During our work, we interviewed
                             Postal Service Headquarters officials in Network Operations
                             Management and Supply Management; officials in the
                             New York Metro and Northeast Areas; and officials,
                             managers, and employees at the New Jersey and Long
                             Island MTESCs.

                             We used Postal Service computer-generated data to
                             determine trip dispatch, arrival, and load efficiency, and to
                             identify potential trips for consolidation or elimination. We
                             observed and photographed operations and examined
                             applicable Postal Service policies, procedures, and
                             directives. We consulted with statisticians and other
                             subject-matter experts. We also discussed our
                             observations and conclusions with management officials
                             and included their comments where appropriate.

                             During our audit, the Postal Service awarded a new contract
                             for the New Jersey MTESC and relocated the site.
                             Consequently, trip distance and cost data obtained from the
                             original site was outdated, and data from the new site was
                             unavailable or insufficient for audit. As a result, trip analysis
                             for the New Jersey site is not included in this report.




                                                2
    Mail Transport Equipment Service Center Network –                                NL-AR-05-014
     Highway Transportation Routes – New York Metro Area




                                      We conducted work associated with this report from
                                      May 2004 through September 2005,1 in accordance with
                                      generally accepted government auditing standards and
                                      included tests of internal controls considered necessary
                                      under the circumstances.

    Data Limitations                  During our audit, we examined computer data in
                                      management’s Mail Transport Equipment Support System
                                      and noted several control weaknesses that constrained our
                                      work. For example, the system had missing or incomplete
                                      records and inaccurate trailer load volume data.

    Prior Audit Coverage              Our audit report, Mail Transport Equipment Service Center
                                      Network – Equipment Processing (Report Number NL-AR-
                                      05-006, dated March 31, 2005), concluded the Postal
                                      Service saved more than $7.2 million in processing costs
                                      from March 2002 through September 2004, in-part because
                                      headquarters took aggressive and positive action in
                                      response to OIG recommendations. (See Appendix C.)
                                      Our report also concluded that the Postal Service missed an
                                      opportunity to save an additional $1.4 million because all
                                      mail processing facilities did not quickly comply with
                                      headquarters’ implementing instructions, and that the Postal
                                      Service could save $628,000 over the next 2 years if all
                                      facilities implement headquarters’ policy.

                                      We recommended management reemphasize Postal
                                      Service over-the-road (OTR) processing policy to all mail
                                      processing facilities. Management agreed with our
                                      recommendation and issued additional instructions on
                                      March 23, 2005. (See Appendix D.)




1
    MTESC realignment initiatives and other priorities delayed project completion.



                                                             3
Mail Transport Equipment Service Center Network –                           NL-AR-05-014
 Highway Transportation Routes – New York Metro Area



                                        AUDIT RESULTS
Highway Contract                 The Postal Service could attain savings or cost avoidances
Management                       totaling approximately $741,000 over the term of existing
                                 New York Metro Area MTESC highway contracts by
                                 eliminating or not renewing 49 unnecessary round trips.
                                 Further, during 2004 and 2005, the Postal Service may
                                 have missed an opportunity to save about $285,000
                                 because the New York Bulk Mail Center did not comply with
                                 the Postal Service OTR container processing policy. The
                                 affected trips originated and returned to the Long Island
                                 MTESC.

                                 Postal Service policy requires transportation managers to
                                 balance service and cost and precludes managers from
                                 sending serviceable OTR containers to equipment service
                                 centers. The 49 trips could be eliminated without affecting
                                 service because:

                                    •   Some trailer loads were not optimized and equipment
                                        could be consolidated on other trips.

                                    •   Some trips were scheduled primarily to return
                                        serviceable OTR containers inappropriately sent to
                                        the MTESC by the New Jersey Bulk Mail Center.




     The interior of an
underutilized trailer arriving
at the Long Island MTESC,
        May 1, 2004.




                                 The Postal Service could attain savings or cost avoidances
                                 by not renewing unnecessary trips scheduled to expire
                                 within one year, or by canceling unnecessary trips currently
                                 contracted to continue beyond one year. See Figure 1 on
                                 the following page.



                                                  4
     Mail Transport Equipment Service Center Network –                                  NL-AR-05-014
      Highway Transportation Routes – New York Metro Area




                                             PROPOSED NONRENEWALS AND CANCELLATIONS
                                                   BY REMAINING CONTRACT TERM

                                               TRIP                 AFFECTED        NUMBER      ESTIMATED
                                             CATEGORY                 TRIPS         OF TRIPS     SAVINGS

                                   Contracts expiring within
                                   one year                          33 percent         16       $459,250

                                   Contracts with more than
                                   one year remaining                67 percent         33       $281,502

                                   All terminated trips             100 percent         49       $740,752

                                                                   Figure 1

                                  Officials agreed they would consider 17 of our proposals,
                                  but disagreed with 32 others. They asserted the trips were
                                  needed for service or flexibility. In 10 of the 32 cases,
                                  officials explained that trips were needed to return
                                  serviceable OTR containers sent to the MTESC by the
                                  New Jersey Bulk Mail Center. However, Postal Service’s
                                  March 2002 policy states that serviceable OTRs are to
                                  remain exclusively within the bulk mail center network, and
                                  only OTRs requiring repair are to be shipped to service
                                  centers. (See Appendices C and D.) Our trip cancellation
                                  proposals are summarized below:

 Area position conflicts                                  PROPOSED TRIP ELIMINATIONS
                                                           BY ELIMINATION CATEGORY
  with Postal Service
        policy                               ELIMINATION            NUMBER
(See Appendices C & D)                        CATEGORY              OF TRIPS       APPENDIX      SAVING*

                                     Proposed eliminations
                                     with which area officials
                                     agreed                            17              A         $115,413

                                     Proposed trip eliminations
                                     area officials agreed to
                                     consider                          22              B         $272,779

                                     Proposed trips officials
                                     felt may be needed to
                                     return serviceable OTR
                                     containers                        10              B         $352,560

                                     Total                             49                        $740,752

                                                                              * Savings and cost avoidance
                                                                   Figure 2




                                                          5
Mail Transport Equipment Service Center Network –                                NL-AR-05-014
 Highway Transportation Routes – New York Metro Area



                             During our on-site inspection of the Long Island MTESC on
                             May 11 through May 15, 2004, we inspected incoming
                             OTRs to determine compliance with Postal Service OTR
                             policy. We did not observe any arriving OTRs that required
                             repair. However, we did observe 210 serviceable OTRs
                             arrive for storage and reissue.

                             Our examination of Postal Service records indicated that
                             from January 1, 2004, through August 14, 2005, the Long
                             Island MTESC operated at least ten trips per week to return
                             OTR containers inappropriately sent to the MTESC. Postal
                             Service may have missed an opportunity to save at least
                             $285,060 because the New Jersey Bulk Mail Center did not
                             quickly comply with headquarters OTR container policy.
                             (See Figure 3 below.)

                                            MISSED OTR TRIP SAVINGS OPPORTUNITY

                                                              Weekly
                                                               OTR         Weeks
                            Highway                           Round      Identified
                            Contract   Contract    Contract Trips From      on            Total
                             Route      Term         Rate     MTESC       Contract        Cost

                                       1/1/2004
                                        through
                             117AK     7/30/2004       $340     10          30          $102,000

                                       7/31/2004
                                        through
                             117DK     8/14/2005       $339     10          54          $183,060
                                                                                        $285,060

                                                              Figure 3

                             Although Network Operations Management officials
                             continually strive to optimize transportation with aggressive
                             cost-cutting efforts such as their MTESC network cost and
                             efficiency assessments, transportation requirements are
                             dynamic and constantly change. We discussed each of the
                             trips with area officials and reconsidered service
                             requirements.

                             Based on our examination of scheduled shipments and our
                             physical examination of trailer utilization for the proposed
                             trip eliminations, we continue to believe the potential for trip
                             cancellation and savings exists, without jeopardizing service




                                                   6
Mail Transport Equipment Service Center Network –                         NL-AR-05-014
 Highway Transportation Routes – New York Metro Area




                             or operational flexibility. The savings we identified are net
                             of $5,581 in cancellation fees. (See Appendix B.)

Recommendation               We recommend the vice president, New York Metro Area
                             Operations, and the vice president, Northeast Area
                             Operations, coordinate to:

                                 1. Evaluate the 49 trips we recommend for termination,
                                    terminate the trips, or document the reasons for
                                    retaining the trips.

Management’s                 New York Metro Area management agreed with our
Comments                     recommendation. They stated that they had already
                             terminated certain trips we proposed for elimination, that
                             they believed our other proposals may have merit, and that
                             they were considering our proposals. Management also
                             stated that they would document their decisions not later
                             than October 14, 2005.

                             Northeast Area management initially disagreed with the
                             proposed trip eliminations that pertained to their area.
                             However, on September 21, 2005, they revised their
                             response, stated that they believed our proposals may have
                             merit, and that they were considering those proposals.
                             They also stated that they would document their decision
                             not later than October 14, 2005.

                             Management requested that in certain cases we refer to the
                             monetary impact of our proposals as a “cost avoidance.”
                             Accordingly, we modified our report to accommodate their
                             request. Management’s comments, in their entirety, are
                             included in Appendix E of this report.

Evaluation of                Management’s comments are responsive to our
Management’s                 recommendations. We consider the actions management
Comments                     has taken or planned sufficient to address the proposals we
                             identified in our report.




                                                7
    Mail Transport Equipment Service Centers Network –                                                                                      NL-AR-05-14
     Highway Transportation Routes – New York Metro Area



                      APPENDIX A. TRIP ANALYSIS DETAIL
    PROPOSED ELIMINATIONS WITH WHICH POSTAL SERVICE MANAGEMENT AGREED



                                                                                                                                 OIG
                                                                                                                              Proposed           Total
    Highway                                                                                                                     Weekly         Projected
    Contract                                                                                    Origination or Destination   Round Trip        Savings
     Route                     Destination Point                      Contract Term                    Trip Number           Eliminations     on Contract
     112VS     Brooklyn, NY Processing and Distribution Center                                             868                    1
     112VS     Brooklyn, NY Processing and Distribution Center                                             878                    6
     112VS     Brooklyn, NY Processing and Distribution Center                                             882                    5
                                                                                            2
                             TOTALS FOR 112VS                      01/01/2003- Indefinite                                        12            $100,801


     117VS     Mid Island, NY Processing and Distribution Center   01/01/2003- Indefinite                 8016                    5             $14,612


                        TOTALS FOR 112VS and 117VS                                                                               17            $115,413




2
 Area personnel agreed to a two-year contract saving calculation on MTESC trips services by Postal Service owned vehicle service, denoted by “VS” in the
above contract numbers.
                                                                            8
    Mail Transport Equipment Service Centers Network –                                                                                        NL-AR-05-14
     Highway Transportation Routes – New York Metro Area



                   APPENDIX B. TRIP ANALYSIS DETAIL
PROPOSED ELIMINATIONS POSTAL SERVICE MANAGEMENT AGREED TO CONSIDER

Proposed Service or Flexibility Trip Eliminations:
    Highway                                                                                  Origination or    OIG Proposed                    Total Projected
    Contract                                                                                  Destination     Weekly Round Trip   Indemnity      Savings on
     Route                     Destination Point                       Contract Term          Trip Number       Eliminations         Fees         Contract
     068AK     Stamford, CT Processing and Distribution Center                                     2                 1
     068AK     Stamford, CT Processing and Distribution Center                                     4                 3
     068AK     Stamford, CT Processing and Distribution Center                                     6                 1
                                                   3
                             TOTALS FOR 068AK                      07/01/2003 - 06/30/2007                           5             $5,581         $133,942


     110AK      Queens, NY Processing and Distribution Center      05/31/2004 - 06/09/2006        20                 6                            $106,690
                                                                                                                     6                            $106,690


     117VS     Mid Island, NY Processing and Distribution Center   01/01/2003- Indefinite     8018, 8064             11                           $32,146
                                                                                                                     11                           $32,146


                   TOTALS FOR 068AK, 110AK AND 117VS                                                                 22                           $272,779


Proposed OTR Trip Eliminations:
    Highway                                                                                  Origination or    OIG Proposed
    Contract                                                                                  Destination     Weekly Round Trip   Indemnity    Total Projected
     Route                     Destination Point                       Contract Term          Trip Number       Eliminations         Fees      Cost Avoidance
     117DK               New Jersey Bulk Mail Center                                             8079                5
     117DK               New Jersey Bulk Mail Center                                             9063                5
                                                   4
                             TOTALS FOR 117DK                      06/15/2004 - 07/29/2006                           10                           $352,560


3
    Trip 068 AK is a Northeast Area contract.
4
    Ten OTR’s standing orders to be eliminated from Highway Contract Route 117DK to the New Jersey Bulk Mail Center.




                                                                                    9
Mail Transport Equipment Service Centers Network –          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area



                  APPENDIX C. OTR CONTAINER POLICY LETTER




                                                       10
Mail Transport Equipment Service Centers Network –          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area



        APPENDIX D. REEMPHASIS OF OVER-THE-ROAD CONTAINER
                          POLICY LETTER




                                                       11
Mail Transport Equipment Service Centers Network –          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area



                      APPENDIX E. MANAGEMENT’S COMMENTS




                                                       12
Mail Transport Equipment Service Centers Network –          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area




                                                       13
Mail Transport Equipment Service Centers Network –          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area




                                                       14
Mail Transport Equipment Service Centers Network –          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area




                                                       15
Mail Transport Equipment Service Centers Network –          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area




                                                       16
Mail Transport Equipment Service Centers Network –          NL-AR-05-014
 Highway Transportation Routes – New York Metro Area




                                                       17
